December 3, 1999

CLARENCE E. LEWIS, JR.
CHIEF OPERATING OFFICER
 AND EXECUTIVE VICE PRESIDENT

NORMAN E. LORENTZ
SENIOR VICE PRESIDENT,
 CHIEF TECHNOLOGY OFFICER

SUBJECT:	 Year 2000 Business Contingency and Continuity Planning:
          Plan Development and Testing (Report Number TR-AR-00-001)

This report presents the results of the Office of Inspector General’s second review of the
United States Postal Service’s Year 2000 (Y2K) Business Contingency and Continuity
Planning Initiative (Project Number 00PA016TR000). During this review, we noted that
while the Postal Service had made significant progress in documenting plans, a
contingency plan had not been developed for one critical system. Also, contingency
and continuity plans were often not complete, well integrated, or adequately tested. To
the extent that corrective actions are not taken to address these issues, the Postal
Service may increase the risk of disruptions to core business processes in the event of
Y2K disruptions. Management agreed with two recommendations, agreed in part with
two more, and disagreed with one recommendation. Management has initiatives in
progress, completed, or planned addressing the issues in this report. Management’s
comments and our evaluation of these responses are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, please contact Debra Ritt, director, Transportation, at (703)
248-2198 or me at (703) 248-2300.



Richard F. Chambers
Assistant Inspector General
 for Performance

Attachment
cc:	 Richard D. Weirich
     Nicholas F. Barranca
     Jim Golden
     John R. Gunnels
Y2K Business Contingency and Continuity Planning:                                       TR-AR-00-001
 Plan Development and Testing


                                 TABLE OF CONTENTS
Part I
Executive Summary
                                                                          i

Part II

Introduction
    Background                                                                             1

    Objective, Scope, and Methodology                                                      2

    Prior Audit Coverage                                                                   3


Audit Results

  Plan Inventory                                                                           4

  Recommendation                                                                           4

  Management’s Comments                                                                    5

  Evaluation of Management’s Comments                                                      5


   Adequacy of Plans                                                                       6

   Contingency Plans                                                                       6

   Continuity Plans                                                                        8

   Recommendations                                                                         10

   Management’s Comments                                                                   10

   Evaluation of Management’s Comments                                                     10


   Testing                                                                                 12

   Recommendation                                                                          13

   Management’s Comments                                                                   13

   Evaluation of Management’s Comments                                                     13


   Quality Assurance Process                                                               14

   Recommendation                                                                          15

   Management’s Comments                                                                   15

   Evaluation of Management’s Comments                                                     15


Appendices
  Appendix A.       Results of Contingency Plan Reviews                                    16

  Appendix B.       Prior Inspector General Y2K Reports                                    19

  Appendix C.       Statistical Sampling and Projections for Review of                     21

                    Year 2000 Continuity Plans

   Appendix D.      Contingency and Continuity Plans with Inadequate                       22

                    Testing Justification

   Appendix E.      Management’s Comments                                                  24





                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                                       TR-AR-00-001
 Plan Development and Testing


                                       EXECUTIVE SUMMARY
Introduction                       This is the Office of Inspector General’s (OIG) second
                                   report on the status and quality of the United States Postal
                                   Service’s (Postal Service) business contingency and
                                   continuity plans,1 and the eleventh in a series of reports2
                                   regarding the Postal Service Year 2000 (Y2K) initiative.
                                   This report addresses whether contingency and continuity
                                   plans: (1) exist for all high-impact areas, (2) are adequate
                                   for successful implementation, and (3) have been
                                   sufficiently tested.

Results in Brief                  The Postal Service has made significant progress in
                                  developing business contingency and continuity plans. To
                                  date continuity plans have been prepared for 32 high-impact
                                  disruptions and contingency plans have been prepared for
                                  173 severe or critical systems and equipment. However, a
                                  contingency plan has yet to be developed for the Equal
                                  Employment Opportunity Complaint Tracking System.
                                  Without a plan, should a disruption occur, the Postal Service
                                  might not be able to process complaints within legal time
                                  requirements. Additionally, although the Postal Service has
                                  continuity plans for high-impact areas, it has not yet
                                  developed contingency plans for all external suppliers. If
                                  these plans are not completed, managers may not have
                                  alternative suppliers to rely on in the event that primary
                                  suppliers encounter Y2K disruptions.

                                  Furthermore, while the Postal Service had developed plans
                                  for its high-impact areas, plan quality varied. Specifically,
                                  contingency plans did not adequately address at least 4 to
                                  as many as 11 of 12 key elements recommended by Postal
                                  Service standards. While plan elements vary in importance,
                                  each element increases Postal Service preparedness to
                                  handle disruptions. Therefore, to the extent that plans
                                  exclude some of the elements, the Postal Service may
                                  encounter delays in recovering from disruptions in critical
                                  business functions and information processing. Finally, we
                                  noted that 16 contingency plans did not adequately identify
                                  other supporting plans. As a result, users may not be able
                                  to access information needed to fully implement contingency
                                  plans.
1
  Continuity plans address pote ntial failures primarily caused by errors in business partner or public infrastructure
systems, while contingency plans address potential failures in systems internal to the Postal Service.
2
  See Appendix B for a list of these reports.

                                                       i
                       This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                              Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                              TR-AR-00-001
 Plan Development and Testing



                                     Similar to our review of contingency plans, our review of
                                     continuity plans disclosed incomplete areas. Continuity
                                     plans generally did not include well-defined operating
                                     procedures for 17 of 32 disruption scenarios, nor were
                                     resource requirements fully developed for the 32 scenarios.
                                     As a result, the Postal Service may not have a well-defined
                                     response to disruptions and staff may not be fully prepared
                                     to manage them.

                                     We also found that the Postal Service was identifying roles
                                     and responsibilities for Y2K business resumption activities
                                     under an initiative separate from its business contingency
                                     and continuity planning initiative. Accordingly, Postal
                                     Service management should ensure that these areas are
                                     integrated into continuity plans and that plans adequately
                                     reference activities that support them.

                                     Key to preparing for Y2K, is the testing of contingency and
                                     continuity plans. Testing is particularly needed to determine
                                     whether incomplete plans are capable of supporting the
                                     agency's core business processes and can be implemented
                                     within a specified period of time. However, the Postal
                                     Service does not plan to test 124 (60 percent) of its plans, all
                                     of which were incomplete in some manner. In addition, the
                                     Postal Service did not adequately justify its reasons for not
                                     testing at least 44 of the 124 plans. Further, we could not
                                     determine whether the Postal Service considered testing all
                                     plan scenarios relating to severe or critical Finance systems.

                                     Since our last report,3 the Postal Service has proposed
                                     steps to enhance quality assurance over its contingency and
                                     continuity planning efforts. While these proposed steps are
                                     commendable, greater oversight and testing of plans is
                                     needed to ensure they are consistent, properly integrated
                                     and sufficiently tested across organizational initiatives. In
                                     addressing the deficiencies we noted, the quality assurance
                                     process should consider the time remaining before the
                                     calendar year rollover, possible leap year disruptions, and
                                     operational disruptions from computer security failures that
                                     may interrupt mail services.



3
    See Appendix B for a listing of reports.

                                                          ii
                          This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                                 Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                       TR-AR-00-001
 Plan Development and Testing


Summary of                   While it may not be practical to refine all contingency and
Recommendations              continuity plans by the end of the year, the Postal Service
                             should concentrate on those of highest impact to its
                             operations. At a minimum, we recommend that the Postal
                             Service develop a plan for the Equal Employment
                             Opportunity Complaint Tracking System and expand testing
                             to those areas where plans are not fully developed. We also
                             recommend that management ensure that proposed quality
                             assurance steps be taken to ensure that plans are
                             adequately integrated with other supporting plans and
                             organizational initiatives, and are properly tested. In the
                             long-term, we believe the Postal Service needs to consider
                             not only possible leap year disruptions, but also operational
                             disruptions from computer security failures that may interrupt
                             mail services. For these reasons, comprehensive plans for
                             all severe or critical systems and for all high-impact failure
                             scenarios should be pursued.

Summary of                   Management agreed with our findings and
Management’s                 recommendations to develop a plan for the Equal
Comments                     Opportunity Complaint Tracking System and to require that
                             quality assurance steps be taken to ensure that plans are
                             adequately integrated and properly tested. In addition,
                             management agreed with our finding and recommendation
                             to integrate supporting contingency and continuity plans, but
                             did not agree to integrate other organizational initiatives.
                             They stated there was less value in integrating plans with
                             other initiatives such as deployment, assignment of roles
                             and responsibilities, and change configuration management
                             because overall year 2000 program interdependencies are
                             actively monitored by the senior executive council.
                             Management also agreed that they needed to update and
                             improve plans and directed business owners to conduct
                             additional reviews. Any plans found lacking would be
                             updated and republished.

                             Management disagreed with our recommendation, as
                             stated, to expand the testing of contingency and continuity
                             plans. However, management plans to require, where
                             appropriate, business owners to either provide adequate
                             justification for not testing plans or conduct tests.

                             We have summarized management’s comments in the
                             report and included the full text of their comments in
                             Appendix E.
                                                   iii
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                       TR-AR-00-001
 Plan Development and Testing



Overall Evaluation of        Management’s comments were generally responsive to our
Management’s                 findings and recommendations. Planned and on-going
Comments                     actions should further mitigate the risk of potential year 2000
                             disruptions. While we found management comments
                             generally responsive, we continue to believe that
                             organizational integration is critical to ensure adequate
                             coordination between related initiatives. Because the Postal
                             Service used a fragmented approach to planning and lacked
                             an adequate quality assurance process, we are not
                             confident that the monitoring performed by the senior
                             executive council is sufficient to ensure interdependencies
                             are adequately coordinated.

                             Although management disagreed with our recommendation
                             relating to the testing of plans as stated, we found
                             management’s action to ask business owners to either
                             further justify not testing or conduct tests, responsive to our
                             findings. Such actions further validate management’s efforts
                             to mitigate year 2000 disruptions.




                                                   iv
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                                           TR-AR-00-001
 Plan Development and Testing


                                                INTRODUCTION
Background	                          The Y2K computing problem poses significant risks that, if
                                     not adequately addressed, could have serious
                                     consequences for the Postal Service. For example, the
                                     timely delivery of the nation’s mail could be at risk if Postal
                                     Service systems and equipment do not function properly.
                                     Ensuring that mail delivery is not disrupted at the turn of the
                                     century is no small undertaking in such a large and diverse
                                     organization as the Postal Service.

                                     In June 1999, the Postal Service headquarters developed a
                                     continuity plan that addressed 32 external failure scenarios,
                                     which could occur primarily due to disruptions in business
                                     partner or public infrastructure systems. This plan was
                                     subsequently distributed to the field for local adaptation, and
                                     508 local plans were generated from the master plan. The
                                     scenarios within this plan comprise disruptions to:

                                     �    Public infrastructure (e.g., banking, telecommunications,
                                          and electrical power);
                                     �    Postal Service supply chain (e.g., air transportation, and
                                          surface transportation);
                                     �    Critical inventory (e.g., mail transport equipment,
                                          stamps, and supplies);
                                     �    Mailing patterns resulting from changes in mailer
                                          behavior; and
                                     �    Services provided by high-impact, critical business
                                          partners.

                                     In addition, as of September 1999, the Postal Service
                                     reported that it had developed contingency plans to mitigate
                                     potential Y2K disruptions for 220 internal systems, including
                                     137 classified as severe4 or critical5 information systems and
                                     another 38 pertaining to mail processing systems. These
                                     plans were developed by each of the five core business
                                     areas--Processing and Distribution, Finance, Marketing,
                                     Mail Operations, and Enabling.

                                     There are several offices within the Postal Service
                                     responsible for completing Y2K program initiatives. The
                                     chief operating officer and executive vice president serves
4
    Severe systems are those that are crucial to core business activities.

5
    Critical systems are those which, in the event of failure, will have significant impact on Postal Service’s operations.


                                                          1
                          This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                                 Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                            TR-AR-00-001
 Plan Development and Testing


                              as the lead executive for business continuity planning. The
                              senior vice president, chief technology officer is responsible
                              for contingency plans relating to internal system failures.6

Objective, Scope, and         The overall objective of our continuing audit coverage is to
Methodology                   report on the status and quality of Y2K business
                              contingency and continuity plans. This report addresses the
                              last two phases of business contingency and continuity
                              planning recommended by GAO7—plan development and
                              testing. Our specific objectives were to determine whether
                              contingency and continuity plans (1) exist for all high-impact
                              areas, (2) are adequate for successful implementation, and
                              (3) have been sufficiently tested.

                              To determine whether contingency and continuity plans
                              exist for all high-impact areas, we reconciled Postal Service
                              plans to progress reports and to its inventory of severe or
                              critical systems as of September 30, 1999.

                              In assessing the completeness of contingency plans for
                              information and mail processing systems, we compared
                              them to standards developed by the Postal Service. Postal
                              Service standards highlighted 12 elements of a successful
                              plan. A consultant engaged in auditing Y2K business
                              contingency and continuity plans also validated our
                              evaluation criteria. To the extent that contingency plans
                              supported continuity plans or other contingency plans, we
                              considered the adequacy of both plans in our assessments.

                              To evaluate the adequacy of Postal Service plans, we
                              assessed the completeness of plans and level of integration
                              between contingency and continuity plans. In assessing
                              plan completeness, we compared the master continuity plan
                              to standards issued by the Mitre Corporation, Information
                              Systems Audit and Control Association, and the Federal
                              Financial Institutions Examination Council. In addition, to
                              determine the level of customization of the master plan that
                              was performed by 508 field units for the 32 failure
                              scenarios, we reviewed a statistically selected sample of
                              115 field continuity plans.


                              To assess the sufficiency of plan testing, we reviewed
6
                              planned tests as well as the first round of testing results. In
A system comprises several components or subsystems.

7
Year 2000 Computing Crisis: Business Continuity and Contingency Planning (GAO/AIMD-10.1.19, August 1998).


                                                    2
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                              TR-AR-00-001
 Plan Development and Testing


                                     planned tests as well as the first round of testing results. In
                                     addition, where available, we analyzed test decisions to
                                     determine whether the Postal Service adequately supported
                                     decisions not to test.

                                     Our audit work was accomplished during the period August
                                     1999 to November 1999 in accordance with generally
                                     accepted government auditing standards and included tests
                                     of internal controls as were considered necessary under the
                                     circumstances.

Prior Audit Coverage                 During our continuing coverage of the Postal Service Y2K
                                     initiative, we issued ten reports8 covering remediation,
                                     validation, reporting quality, budgeting, contracting, and
                                     business continuity planning. In our previous audit of
                                     business contingency and continuity planning, we noted
                                     several areas where management needed to strengthen its
                                     strategy and business impact analysis. We recommended
                                     that the chief operating officer and executive vice president
                                     (1) specify the extent of testing for contingency plans and
                                     monitor remaining milestones, (2) ensure sufficient funding
                                     for plan execution, (3) establish a more comprehensive
                                     quality assurance process, (4) revise supplier assessments
                                     and make adjustments to plans accordingly, and (5)
                                     communicate service commitment expectations to the field.
                                     Management agreed with our findings and
                                     recommendations. Their planned or completed actions
                                     were responsive to our recommendations.




8
    See Appendix B for a listing of reports.

                                                          3
                          This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                                 Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                                   TR-AR-00-001
 Plan Development and Testing


                                           AUDIT RESULTS
    Plan Inventory                 The Postal Service has made significant progress in
                                   developing contingency and continuity plans. Continuity
                                   plans have been developed for 32 high-impact disruptions
                                   and contingency plans have been prepared for 1739 severe
                                   or critical information systems and equipment. However, a
                                   contingency plan has not yet been developed for one
                                   critical system--the Equal Employment Opportunity
                                   Complaint Tracking System,10 within the Enabling business
                                   area. This system is used to track complaints filed and the
                                   timeliness of complaint investigation and processing.
                                   Without a plan for this system, the Postal Service may not
                                   be able to process complaints within legal time
                                   requirements should Y2K disruptions occur.

                                   Although the Postal Service has continuity plans for high­
                                   impact areas, including business partner and public
                                   infrastructure systems, plans have not been developed in
                                   the event that critical external suppliers are not Y2K
                                   compliant. The Postal Service stated that it was developing
                                   supplier contingency plans; however, because there is less
                                   than two months remaining before the end of the year, we
                                   are concerned they may not have sufficient time to
                                   complete these plans. As a result, if suppliers cannot
                                   perform, managers may not have alternative suppliers to
                                   turn to on short notice. This issue and related
                                   recommendations are discussed in greater detail in our
                                   November 1999 report.11

    Recommendation	                We recommend that the chief operating officer and
                                   executive vice president, in conjunction with the senior vice
                                   president, chief technology officer :

                                   1. Ensure that a plan is developed for the Equal
                                      Employment Opportunity Complaint Tracking System.




9
  Contingency plans relating to two of the severe or critical information and mail processing systems (the Equal
Employment Opportunity Complaint Tracking System and the Address Management System - Personal Computer)
were not reviewed
10
   Index number 1012.00 in Postal Service’s inventory.
11
   Year 2000 Initiative: Suppliers, Mail Processing Equipment, Facilities, and Embedded Chips (Report No. IS-AR-00-
001).

                                                      4
                      This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                             Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                       TR-AR-00-001
 Plan Development and Testing



 Management’s 	                Management agreed with our finding and recommendation
 Comments	                     to develop a plan for the Equal Opportunity Complaint
                               Tracking System. They stated that although the original
                               plan could not be located, a new plan has been developed
                               for this system.
 Evaluation of                 Management’s comments are responsive to our finding and
 Management’s                  recommendation. The development of a contingency plan
 Comments                      for the Equal Opportunity Complaint Tracking System
                               completes the Postal Service requirement to have plans for
                               all severe or critical systems.




                                                   5
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                                  TR-AR-00-001
 Plan Development and Testing



Adequacy of Plans	               Because of the risk of Y2K failures, comprehensive
                                 business contingency and continuity plans are essential to
                                 continuing core operations. Without well-defined plans, the
                                 Postal Service may not be able to respond appropriately or
                                 have sufficient time to develop alternatives if unpredicted
                                 failures occur.

Contingency Plans	               Contingency plans for 173 severe or critical information and
                                 mail processing systems we reviewed did not adequately
                                 address at least 4 to as many as 11 of the 12 elements
                                 recommended by Postal Service standards. According to
                                 these standards,12 plans should address the following 12
                                 key elements:

                                 •	 Objective or scenario,
                                 •	 Criteria/trigger for invoking the plan,
                                 •	 Expected life of the plan,
                                 •	 Procedures for operating in contingency mode,
                                 •	 Roles assigned to actions,
                                 •	 Responsibilities assigned to individuals,
                                 •	 Authority to execute plans,
                                 •	 Personnel required to execute plans,
                                 •	 Scheduling of labor,
                                 •	 Tools --e.g., materials, supplies, facilities,
                                    communications equipment,
                                 •	 Funding requirements, and
                                 •	 Criteria and procedures for returning to normal
                                    operations (normalization procedures).

                                 According to Postal Service officials, these standards vary
                                 in importance and the absence of any one element may not
                                 render the plan ineffective. However, industry standards
                                 acknowledge that the 12 elements are all important for
                                 successful plan implementation. The absence of one or
                                 more of these elements increases the risk that the plan may
                                 not work as intended. The quality of plans varied by the
                                 five business areas. Plans in the Processing and
                                 Distribution Systems area were most complete, while those
                                 in the Enabling area were least complete.



12
   USPS standards are consistent with industry standards such as the Mitre Corporation, Information Systems Audit
and Control Association, and the Federal Financial Institutions Examination Council.

                                                      6
                      This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                             Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                                   TR-AR-00-001
 Plan Development and Testing


                                  The 38 plans addressing processing and distribution
                                  systems were generally missing parts of four key elements
                                  (objectives, assigning responsibility to individuals,
                                  scheduling, and tools) needed for successful plan
                                  implementation. For example, individuals responsible for
                                  implementing the plan were not identified. This element is
                                  needed to ensure that accountability for all plan steps has
                                  been assigned. Further, under the areas of scheduling and
                                  tools, current software versions are to be installed and
                                  hardware configurations checked before the contingency
                                  plan can be implemented. However, none of the
                                  contingency plans showed whether or when these steps
                                  had to be done. As stated in our November 1999 Y2K
                                  report,13 while the Postal Service has an adequate process
                                  in place to ensure critical mail processing equipment
                                  functions properly, it also needs to closely monitor
                                  deployment of Y2K remediated software to ensure the
                                  correct versions are being installed prior to Y2K.

                                  Following processing systems, 43 Finance and 28
                                  Marketing plans generally did not adequately address
                                  seven elements from the standards. For Finance plans,
                                  four of the seven elements related to general resource
                                  requirements: personnel, scheduling, tools, and funding.
                                  The remaining three elements included assigning individual
                                  responsibilities, associating roles with actions, and
                                  including procedures for returning to normal operations.
                                  We noted that while these elements often were not
                                  addressed in contingency plans, they were at times stated
                                  in separate communications plans. Similarly, Marketing
                                  plans did not adequately address roles, responsibilities, and
                                  resource requirements. In addition, Marketing plans did not
                                  adequately address the life of plans.

                                  Furthermore, 31 Mail Operations plans generally did not
                                  adequately address nine elements including triggers, plan
                                  life, roles, responsibilities, personnel requirements,
                                  scheduling, tools, funding, and well-defined objectives.

                                  Finally, 33 plans in the Enabling business area generally
                                  did not adequately address 11 key elements. The only key
                                  element that was complete was contact information for
                                  personnel with authority to invoke the plans.
13
   Year 2000 Initiative: Suppliers, Mail Processing Equipment, Facilities, and Embedded Chips (Report No. IS-AR-00-
001).

                                                      7
                      This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                             Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                              TR-AR-00-001
 Plan Development and Testing



                                      Contingency plans were incomplete because they were
                                      developed by several different business areas that were
                                      given maximum latitude to design plans as they saw fit.
                                      While this approach ensured plans were developed by
                                      those most knowledgeable of the severe or critical systems,
                                      it resulted in inconsistent plan development. In addition, a
                                      centralized quality assurance process was not in place to
                                      ensure that plans were revised in accordance with Postal
                                      Service standards. Without comprehensive contingency
                                      plans, the Postal Service may encounter delays in
                                      recovering critical business functions and information
                                      processing.

                                      We also noted that 16 contingency plans cited
                                      dependencies on other plans, but did not adequately refer
                                      to those plans. For example, the contingency plan for the
                                      Intra-Alaska Dispatch System referred to a group of
                                      Process Accounts Payable plans, but did not reference a
                                      specific plan under this grouping. In another example, key
                                      elements for the Finance area were spread between
                                      contingency plans and communications plans. Providing
                                      minimal reference information and dividing key elements
                                      among separate plans makes it more difficult for users to
                                      readily access information needed for operating in a
                                      contingency mode.

                                      Detailed results of our review of each business area are
                                      provided in Appendix A.

Continuity Plans	                     Continuity plans were incomplete for the 32 high-impact
                                      disruption scenarios. Specifically, plans did not include
                                      well-defined operating procedures for 17 of the 32
                                      scenarios, nor were resource requirements fully developed
                                      for the 32 scenarios. Although headquarters expected
                                      procedures and resource requirements to be further defined
                                      by field units, we estimated that at least 91 percent of 508
                                      field plans 14 were not modified beyond providing additional
                                      contact information. As a result, the Postal Service may not
                                      have a well-defined response and staff may not be fully
                                      prepared to manage disruptions. Prolonged business
                                      disruptions could jeopardize the Postal Service's image as
                                      a reliable provider of mail services.

14
     See Appendix C for the basis of our statistical analysis.

                                                          8
                          This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                                 Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                       TR-AR-00-001
 Plan Development and Testing


                              In 6 of 17 scenarios, we also noted that procedures would
                              not be developed until the time of disruption or were to be
                              addressed under a separate initiative. For example, in the
                              event of a Customs failure impacting the flow of
                              international mail, the Postal Service’s plan is to work with
                              Customs to determine the best plan for either holding the
                              mail or manually processing selected items. In another
                              example, procedures for restoring data communications
                              were being developed under a separate information
                              technology initiative. While this may be true, the Postal
                              Service was unable to demonstrate that these procedures
                              had been developed or reconciled to business continuity
                              scenarios to ensure organizational readiness in these
                              areas. We believe the absence of procedures may
                              contribute to unnecessary delays in moving the mail.

                              In addition, other factors critical to successful plan
                              implementation were being addressed under separate
                              organizational initiatives and were not integrated into
                              continuity plans. For example, Postal Service
                              representatives stated that assigning roles and
                              responsibilities for business resumption activities is being
                              addressed under the recovery management initiative.
                              While this may be true, recovery management is not
                              responsible for assigning roles and responsibilities. Field
                              units are ultimately responsible for this activity, but currently
                              there is no process in place to ensure this occurs. As a
                              result, a single continuity plan, by itself, does not contain all
                              of the elements needed for successful implementation,
                              which creates challenges for the field if plans are to be
                              implemented.

                              In addition, plans did not refer to supporting activities or to
                              other plans that support them. For example, in 11 of 32
                              scenarios, continuity plan procedures included executing
                              contingency plans; however, they did not refer to specific
                              contingency plans.

                              With little time remaining before the calendar year rollover,
                              the Postal Service will need to determine how best to
                              address plan deficiencies. While it may not be practical to
                              complete development of all contingency and continuity
                              plans by the end of the year, the Postal Service will need to
                              concentrate on those highest impact plans. However, in
                              the long-term, the Postal Service needs to consider not only

                                                   9
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                       TR-AR-00-001
 Plan Development and Testing


                              possible leap year disruptions, but also operational
                              disruptions from computer security failures that disrupt mail
                              services. For these reasons, comprehensive plans for all
                              severe or critical systems and for all high-impact failure
                              scenarios should be pursued.

Recommendations 	             We recommend that the chief operating officer and
                              executive vice president, in conjunction with the senior vice
                              president, chief technology officer:

                              2. Integrate supporting contingency and continuity plans
                                 and other organizational initiatives.

Management’s                  Management agreed with our finding and recommendation
Comments                      (number 2) to integrate supporting contingency and
                              continuity plans but did not agree to integrate other
                              organizational initiatives. They stated there was less value
                              in integrating plans with other initiatives such as
                              deployment, assignment of roles and responsibilities, and
                              change configuration management because overall
                              year 2000 program interdependencies are actively
                              monitored by the senior executive council. Moreover,
                              management implied that the Office of Management and
                              Budget has endorsed their decision not to include individual
                              roles and responsibilities in business contingency and
                              continuity plans.

Evaluation of                 Management’s comments were not fully responsive to our
Management’s                  findings and recommendation regarding plan integration.
Comments                      While management agreed to better integrate contingency
                              and continuity plans, they did not agree to integrate plans
                              with other organizational initiatives. We continue to believe
                              that this type of integration is critical to ensure adequate
                              coordination between related initiatives. Because the
                              Postal Service used a fragmented approach to planning
                              and lacked an adequate quality assurance process, we are
                              not confident that the monitoring performed by the senior
                              executive council is sufficient to ensure interdependencies
                              are adequately coordinated. In addition, we believe
                              management has taken the Office of Management and
                              Budget’s statement regarding the assignment of roles and
                              responsibilities out of context. The Office of Management
                              and Budget’s statement related to the Postal Service’s Day
                              One Strategy Guide, and not its continuity or contingency
                              plans. Contrary to management’s assertion, industry

                                                   10
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                       TR-AR-00-001
 Plan Development and Testing


                              guidance suggests that plans should describe the
                              assignment of roles and responsibilities of key individuals.
                              This is needed to ensure that these individuals are familiar
                              with their roles and responsibilities for executing plan steps.

                              In the long-term we recommend that the chief operating
                              officer and executive vice president, in conjunction with the
                              senior vice president, chief technology officer direct
                              business areas to:

                              3. Further complete business contingency and continuity
                                 plans, beginning with those areas of greatest risk.

Management’s                  Management agreed with recommendation 3 that they
Comments                      needed to update and improve plans but stated that they
                              considered all elements and only included those they
                              believed was appropriate. Nevertheless, in light of our
                              findings, management is directing business owners to
                              conduct additional reviews of plans and update and
                              republish any plans found lacking.
Evaluation of                 Management’s actions to conduct additional reviews of
Management’s                  plans and update where necessary are responsive to our
Comments                      findings and recommendation. Additional reviews focusing
                              on the completeness of plans should further strengthen
                              management’s efforts to mitigate year 2000 disruptions.




                                                   11
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                                     TR-AR-00-001
 Plan Development and Testing



Testing	                          Key to preparing for Y2K is the testing of contingency and
                                  continuity plans. Testing is needed to determine whether
                                  plans are capable of providing the level of support to the
                                  agency's core business processes and can be implemented
                                  within a specified period of time. Integration testing across
                                  multiple departments, including external business entities as
                                  appropriate, must also be conducted where needed. Thus,
                                  testing should uncover operational elements requiring
                                  adjustments to assure successful plan execution and assure
                                  that individuals understand the procedures and their roles.

                                  We found that the Postal Service does not plan to test 124
                                  (60 percent),15 of its business continuity and severe or
                                  critical contingency plans, although testing is encouraged by
                                  GAO and industry standards and, as discussed previously,
                                  plans are generally incomplete. According to the Postal
                                  Service, the 124 plans comprise standard operating
                                  procedure or are so simple they do not require rehearsal.
                                  Specifically, 49 plans address standard operating
                                  procedures and 75 plans were considered to be simple to
                                  execute. We believe the importance of testing cannot be
                                  overemphasized because in 19 cases where the Postal
                                  Service conducted pre-tests, plans delivered unanticipated
                                  results and required adjustments. Specifically, Y2K
                                  representatives for the Forwarding Control System re-wrote
                                  the related contingency plan after initial attempts to test the
                                  plan showed that it was not executable. In addition, 18
                                  contingency plans in the Mail Operations business area
                                  underwent significant revisions after a review of the
                                  soundness of the proposed contingency strategy revealed
                                  significant weaknesses.

                                  The Postal Service prepared justifications for not testing the
                                  124 plans and while we agree that all plans do not require
                                  comprehensive testing, we believe that the Postal Service
                                  did not sufficiently justify its decision for at least 44 of the
                                  124 plans. For example, the Postal Service decided not to
                                  test several plans in the Marketing area because the
                                  probability of disruption was low and confidence in the plan
                                  was high. These high confidence levels may not be justified



15
   Sixty percent (124 of 205) plans will not be tested. The 205 include 32 failure scenario plans, 135 information
system plans, and 38 mail processing equipment plans.

                                                      12
                      This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                             Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                       TR-AR-00-001
 Plan Development and Testing


                             Considering the extreme uncertainty of potential Y2K
                             problems. A listing of the 44 plans lacking adequate
                             justification is provided in Appendix D.

                             Further, we were also unable to determine whether the
                             Postal Service plans to test all severe or critical scenarios
                             within the Finance business area. The Postal Service test
                             decisions did not specify which scenarios within each plan
                             were considered.

                             Due to deficiencies existing in contingency and continuity
                             plans and current time constraints, additional testing of
                             plans would provide more assurance that the Postal Service
                             can effectively manage disruptions. In particular, plan walk­
                             throughs, at a minimum, would ensure that applicable
                             personnel, at all levels of the organization, understand plan
                             procedures, their roles, and responsibilities.

Recommendation               Although little time remains before the calendar year
                             rollover, we recommend that the chief operating officer and
                             executive vice president, conjunction with the senior vice
                             president, chief technology officer:

                             4. Expand testing of contingency and continuity plans to
                                the maximum extent possible. At a minimum, conduct
                                walk-throughs for those plans that are incomplete.

Management’s                 Management disagreed with our recommendation to expand
Comments                     the testing of contingency and continuity plans. It stated
                             that the level of testing performed to date coupled with the
                             dress rehearsal conducted in late November 1999 is more
                             than adequate to ensure that the Postal Service is ready to
                             effectively implement contingency and continuity plans.
                             Rather management plans to require, where appropriate,
                             business owners to either provide adequate justification for
                             not testing plans or conduct tests.

Evaluation of                Although management disagreed with our recommendation,
Management’s                 as stated, we found management’s action to ask business
Comments                     owners to either further justify not testing or conduct tests,
                             responsive to our findings. Such actions further validate
                             management’s efforts to mitigate year 2000 disruptions.




                                                   13
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                              TR-AR-00-001
 Plan Development and Testing


Quality Assurance                    In our previous report on business continuity planning,16 we
Process                              recommended that the Postal Service enhance its quality
                                     assurance process to provide needed oversight of business
                                     contingency and continuity planning efforts. In response to
                                     our findings, the Postal Service stated that integration of
                                     business contingency and continuity plans is being
                                     undertaken to ensure that all cross-references between the
                                     plans are clear and easy to follow. Further, a dress
                                     rehearsal, scheduled for late November, has been added to
                                     the project plan to test the readiness of the field, as well as
                                     their understanding of how and when to use business
                                     contingency and continuity plans. Finally, the chief
                                     operating officer and executive vice president has mandated
                                     that individuals, throughout the organization, be assigned
                                     accountability for the roles and responsibilities and the
                                     implementation of plans, should the need arise. Thus,
                                     accountability will be monitored through a certification
                                     process.

                                     While we believe these proposed actions should further
                                     strengthen business contingency and continuity plans,
                                     adequate oversight is needed to ensure that gaps in
                                     planning are addressed and that plans are properly
                                     integrated and sufficiently tested across multiple
                                     organizational initiatives. Further, relying on business
                                     managers alone to certify that plans are complete or that
                                     roles and responsibilities have been assigned will not
                                     provide adequate assurance that these steps have been
                                     taken. For instance, business areas certified that continuity
                                     plans were sufficient for local implementation; however, little
                                     or no changes were made to adapt the continuity plans.
                                     According to the manager for business continuity planning,
                                     the field did not sufficiently develop procedures for at least
                                     two scenarios (facility closures and inability of employees to
                                     get to work), although managers had given their assurances
                                     that plans were complete.

                                     In addressing any quality assurance process deficiencies,
                                     the Postal Service should consider the time remaining
                                     before the calendar year rollover, possible leap year
                                     disruptions, and operational disruptions from computer
                                     security failures that interrupt mail services.


16
     See Appendix B for a listing of reports.

                                                          14
                          This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                                 Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                       TR-AR-00-001
 Plan Development and Testing


Recommendation	              We recommend that the chief operating officer and
                             executive vice president:

                             5. Require that the proposed quality assurance steps be
                                taken to ensure that plans are adequately integrated with
                                other supporting plans and organizational initiatives, and
                                are properly tested.

Management’s                 Management agreed with our finding and recommendation
Comments                     to require quality assurance steps be taken to ensure that
                             plans are adequately integrated and properly tested. They
                             stated that plans would be reviewed, tests concluded, dress
                             rehearsals conducted, and plans updated and republished,
                             where required.

Evaluation of                Management’s comments are responsive to our finding and
Management’s                 recommendation. A continual quality assurance process
Comments                     increases confidence that plans will work as intended.




                                                   15
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                                    TR-AR-00-001
 Plan Development and Testing


                             APPENDIX A
                RESULTS OF CONTINGENCY PLAN REVIEWS

                          The following tables summarize by business area the number and
                          percentage of contingency plans lacking key elements
                          recommended for successful implementation.

 Processing and
                                                                                  Severe and Critical Systems
 Distribution                                                                             ( 38 Plans)
 Contingency Plans                 Elements of a Successful Plan            Number Plans with    % Plans Key with
                                                                             Incomplete Key      Incomplete Key
                                                                                Elements            Elements
                            1   Objectives (Scenario)                              38                 100%
                            2   Trigger event                                       0                   0%
                            3   Life of plan                                        0                   0%
                            4   Procedures (actions)                                0                   0%
                            5   Roles assigned to actions                           0                   0%
                            6   Responsibilities assigned to individuals           28                  74%
                            7   Contact information provided for                    0                   0%
                                personnel with authority to execute plans
                            8   Personnel requirements                              4                  11%
                            9   Scheduling requirements                            38                  100%
                           10 Tools requirements                                   36                  95%
                           11 Funding requirements                                  5                  13%
                           12 Procedures and criteria for normalizing               0                   0%
                              operations


 Finance
 Contingency Plans                                                                Severe and Critical Systems
                                                                                          ( 43 Plans)
                                   Elements of a Successful Plan            Number Plans with    % Plans Key with
                                                                             Incomplete Key      Incomplete Key
                                                                                Elements            Elements
                            1   Objectives (Scenario)                               0                  0%
                            2   Trigger event                                       0                   0%
                            3   Life of plan                                        6                  14%
                            4   Procedures (actions)                                0                   0%
                            5   Roles assigned to actions                          17                  40%
                            6   Responsibilities assigned to individuals           34                  79%
                            7   Contact information provided for                    0                   0%
                                personnel with authority to execute plans
                            8   Personnel requirements                             29                  67%
                            9   Scheduling requirements                            29                  67%
                           10 Tools requirements                                   32                  74%
                           11 Funding requirements                                  7                  16%
                           12 Procedures and criteria for normalizing              25                  58%
                              operations




                                                   16
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                                 TR-AR-00-001
 Plan Development and Testing



 Marketing
                                                                               Severe and Critical Systems
 Contingency Plans                                                                     ( 28 Plans)
                                  Elements of a Successful Plan
                                                                        Number Plans with        % Plans Key with
                                                                     Incomplete Key Elements Incomplete Key Elements
                              1   Objectives (Scenario)                        1                       4%
                              2   Trigger event                                4                       14%
                              3   Life of plan                                 5                       18%
                              4   Procedures (actions)                         0                       0%
                              5   Roles assigned to actions                    6                       21%
                              6   Responsibilities assigned to                 14                      50%
                                  individuals

                              7   Contact information provided for             0                       0%
                                  personnel with authority to
                                  execute plans

                              8   Personnel requirements                       10                      36%
                              9   Scheduling requirements                      23                      82%
                              10 Tools requirements                            9                       32%
                              11 Funding requirements                          9                       32%
                              12 Procedures and criteria for                   2                       7%
                                 normalizing operations



 Mail Operations                                                               Severe and Critical Systems
 Contingency Plans                                                                     ( 31 Plans)
                                  Elements of a Successful Plan
                                                                        Number Plans with        % Plans Key with
                                                                     Incomplete Key Elements Incomplete Key Elements
                              1   Objectives (Scenario)                        13                      42%
                              2   Trigger event                                8                       26%
                              3   Life of plan                                 16                      52%
                              4   Procedures (actions)                         4                       13%
                              5   Roles assigned to actions                    17                      55%
                              6   Responsibilities assigned to                 30                      97%
                                  individuals

                              7   Contact information provided for             0                       0%
                                  personnel with authority to
                                  execute plans

                              8   Personnel requirements                       25                      81%
                              9   Scheduling requirements                      31                     100%
                              10 Tools requirements                            20                      65%
                              11 Funding requirements                          23                      74%
                              12 Procedures and criteria for                   4                       13%
                                 normalizing operations




                                                   17

                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                                 TR-AR-00-001
 Plan Development and Testing



 Enabling                                                                     Severe and Critical Systems
 Contingency Plans                                                                    (33 Plans)
                                 Elements of a Successful Plan
                                                                       Number Plans with        % Plans Key with
                                                                    Incomplete Key Elements Incomplete Key Elements
                             1   Objectives (Scenario)                        6                       18%
                             2   Trigger event                                5                       15%
                             3   Life of plan                                 8                       24%
                             4   Procedures (actions)                         11                      33%
                             5   Roles assigned to actions                    21                      64%
                             6   Responsibilities assigned to                 33                     100%
                                 individuals

                             7   Contact information provided for             0                       0%
                                 personnel with authority to
                                 execute plans

                             8   Personnel requirements                       20                      61%
                             9   Scheduling requirements                      28                      85%
                            10 Tools requirements                             21                      64%
                            11 Funding requirements                           21                      64%
                            12 Procedures and criteria for                    10                      30%
                               normalizing operations




                                                   18

                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                       TR-AR-00-001
 Plan Development and Testing


                             APPENDIX B
                PRIOR INSPECTOR GENERAL Y2K REPORTS

In November 1999, we issued a report entitled Year 2000 Initiative: Suppliers, Mail
Processing Equipment, Facilities, and Embedded Chips (Report No. IS-AR-00-001
dated November 30, 1999), which noted that the Postal Service needs to place more
emphasis on the issue of alternative suppliers. Specifically, we recommended that the
Postal Service needs to develop supplier contingency plans and establish a
no-later-than date when it will look to these alternative suppliers to take over for its at­
risk critical suppliers, i.e., suppliers who may not be Y2K ready or who have already
reported their inability to become Y2K ready.

In September 1999, we issued a report entitled Business Contingency and Continuity
Planning: Initiation and Business Impacts, (Report No. TR-AR-99-002 dated September
29, 1999), that noted several areas in which management had taken positive steps to
mitigate Y2K disruptions. In addition, our audit identified several areas in which
management needs to strengthen its strategy and business impact analysis.

In September 1999, we issued a report entitled Year 2000 Initiative: Review of
Administration: Status Report on Postal Service Year 2000 Readiness, (Report No. IS-
AR-99-002 September 20, 1999), that provided the May 1999 status of postal initiatives
relating to information systems, exchanges, contingency plans, mail processing
equipment, suppliers, facility sites, continuity plans, and testing.

In July 1999, we issued Year 2000 Initiative: Review of Administration, (Report No. FR-
MA-99-002 dated July 7, 1999). Among the more significant issues, we noted that
adequate controls often were not in place to monitor contractor activities, information
often had not been provided to Integrated Business Systems Solutions Center
personnel to help in controlling Y2K resources, and work products provided by
contractor personnel were not timely or adequate.

The OIG and General Accounting Office established a joint partnership in the fall of
1998, to work on Y2K issues which led to February 1999 testimony before several
House subcommittees. The Inspector General testimony on the Postal Service Y2K
Initiative, (Report No. IS-TR-99-001 dated February 23, 1999), addressed major
challenges facing the Postal Service. These included: developing and implementing a
business contingency and continuity plan; determining whether external suppliers and
Postal facilities are Y2K ready; deploying solutions and testing mail processing
equipment; and reviewing, correcting, and testing information systems, data exchanges,
and information technology infrastructure. The GAO delivered testimony entitled
“Year 2000 Computing Crisis: Challenges Still Facing the U.S. Postal Service (GAO/T-
AMID-99-86, dated February 23, 1999) which addressed Y2K operational issues similar
to those presented in the IG testimony.


                                                   19
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                       TR-AR-00-001
 Plan Development and Testing


In February 1999, we issued a Y2K report entitled Year 2000 Initiative: Program
Management Reporting (Report No. IS-AR-99-001, dated February 18, 1999) that
addressed quality and reliability of Y2K information reported to senior managers. We
found that Y2K briefings and reports to senior management were not often complete,
consistent, or clear. Y2K briefings did not include a standard report on the overall status
of Y2K progress and were not provided at regularly scheduled intervals. As a result,
senior managers were not always able to use the information to monitor Y2K progress
and make informed decisions.

In September 1998, we issued a Y2K report entitled Year 2000 Initiative: Post
Implementation Verification, (Report No. IS-AR-98-003, dated September 29, 1998),
that involved an assessment of the efficiency and effectiveness of the process
implemented as an independent check on Postal Service remediation efforts. This
report recommended that the Postal Service modify its system certification and post
implementation verification procedures to improve the quality of systems sent to
verification as well as the process itself. Postal Service management fully concurred
with our findings and recommendations.

In July 1998, we issued a Y2K report, entitled Year 2000 Initiative: Status of the
Renovation, Validation, and Implementation Phases, (Report No. IS-AR-98-002, dated
July 21, 1998), that involved a preliminary assessment of the renovation, validation, and
implementation phases of the Postal Service Y2K initiative. It contained
recommendations for improvement in several areas including accurately reporting the
compliance status of systems applications. Postal Service management fully concurred
with our findings and recommendations.

In July 1998, we issued a letter report, entitled Year 2000 Contract Indemnification
Advisory Letter (Report No. CA-LA-98-001, dated July 7, 1998), that addressed
negotiations between the Postal Service and a consulting firm regarding the Y2K
program management contract's indemnification clause. That letter contained
suggestions to Postal Service management regarding the indemnification issue.

Our first Y2K report entitled Year 2000 Initiative, (Report No. IS-AR-98-001 dated March
31, 1998). During this review, we examined the awareness and assessment phases of
the Postal Service Y2K initiative and made recommendations for improvement in
several areas including assigning accountability to responsible managers. Postal
Service management fully concurred with our findings and recommendations.




                                                   20
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                       TR-AR-00-001
 Plan Development and Testing


                                  APPENDIX C
                    STATISTICAL SAMPLING AND PROJECTIONS
                     FOR REVIEW OF Y2K CONTINUITY PLANS

       Purpose of the Sampling

       One of the objectives of this review was to assess the degree to which the Y2K
       business continuity plans submitted were tailored for local conditions. In support
       of this objective, the audit team employed a simple random attribute sample
       design that allows statistical projection of the plans received from individual
       facilities.


       Definition of the Audit Universe

       The audit universe consisted of 508 submitted plans. No projection is made to
       facilities that should have submitted plans but did not do so.


       Sample Design

       The audit used a simple random sample design. We randomly selected 115
       plans for review, to provide a one-sided 95 percent confidence interval with 6.5 to
       7 percent precision for the assumed condition of 50 percent of tailored plans in
       the sample.

       Statistical Projections of the Sample Data

       The tested attribute, e.g., whether business continuity plans were substantially
       tailored as compared to the template plan provided by Postal management, is
       projected to the universe of 508 plans.

       Based on projection of the sample results, we are 95 percent confident that at
       least 90.7 percent or 461 plans, were not substantially tailored. The unbiased
       point estimate is 93.9 percent, or 477 plans.




                                                   21
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                          TR-AR-00-001
 Plan Development and Testing


                                      APPENDIX D
                            Contingency and Continuity Plans
                           With Inadequate Testing Justification
    Business Area                               Plan ID--Title/Scenario                  Criticality/Impact
                                                                                            Probability
                                                                                               Rating
 Business Continuity           Mail Transport Equipment (MTE) Availability                     High

 Business Continuity           Surface Transportation (Long Haul Trucking) Section 2           High

 Business Continuity           US Customs Service                                              High

 Business Continuity           Telecommunications – Section 3 Processing                       High

 Business Continuity           Indianapolis                                                    High

 Business Continuity           Local Transportation and Traffic Infrastructure                 High

 Business Continuity           Surface Transportation (Long Haul Trucking), Section 1          High

 Business Continuity           Employees Reporting to Work Section 1: All Processes            High
                               and Sub-Processes
 Business Continuity           Emery (PMPC) Operations Section 2: Counts, Assigns              High
                               Route Tag (CART) Assignment System
 Business Continuity           Domestic Air Transportation                                     High

 Business Continuity           Potential Facility Closures                                     High

 Business Continuity           Postal Service Products and Supplies                            High

 Business Continuity           Disruptions to Customer System Create Abnormal                  High
                               Mailing Behavior
 Business Continuity           Anticipated Disruptions Cause Changes in Mailing                High
                               Behavior
       Enabling                Human Resources – Workers Compensation Information             Critical
                               System (WCIS)
       Enabling                Tracking and Reduction-In-Force (TARIF)                        Critical

       Enabling                Human Resources - Safety and Health (S&H)                      Critical

       Enabling                Drivers Screening System                                       Critical

       Enabling                Strategic National Automated Purchasing System                 Severe

       Enabling                Human Resources - Risk Management Reporting                    Severe
                               System
       Enabling                National Crime Information Center/National Law                 Severe
                               Enforcement Telecommunication System



                                                    22
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                           TR-AR-00-001
 Plan Development and Testing


    Business Area                                Plan ID--Title/Scenario                  Criticality/Impact
                                                                                             Probability
                                                                                                Rating
       Enabling                 Human Resources – National Accident Reporting                  Severe
                                System
       Enabling                 Financial Exception Reporting System                           Critical

       Finance                  Stamps Application Failure: Stamps Distribution Offices        Severe
                                cannot log into the systems
       Finance                  Statement of Account Data Entry failure                        Severe

       Finance                  Emergency Pay Adjustment System Failure - Payroll              Critical
                                Scenario #20.
   Mail Operations              National Change of Address (NCOA)                              Critical

   Mail Operations              Fast Forward                                                   Critical

   Mail Operations              Management Operating Data System (MODS)                        Severe

   Mail Operations              Corporate Information System Management Operating              Severe
                                Data System (CIS MODS)
   Mail Operations              Computerized Labeling and Address Sequence System              Critical
                                (CLASSI)
   Mail Operations              Drop Shipment Appointment System (DSAS)                        Severe

   Mail Operations              Rail Management Information Systems (RMIS)                     Severe

   Mail Operations              Address Matching System (AMS-API)                              Severe

   Mail Operations              Address Change Service (ACS) NCSC                              Critical

   Mail Operations              Management Operation Data System (PC-MODS)                     Critical

      Marketing                 Meter Accounting and Tracking System (MATS)                    Critical

      Marketing                 CISS IPSS Production Tracking System (IPTS)                    Critical

      Marketing                 Consumer Affairs Messaging System (CAMS)                       Critical

      Marketing                 Centralized Meter Licensing System (CMLS)                      Critical

   Processing and               Identification Code Sorting, PICS/SICS                         Critical
     Distribution
   Processing and               Vending Activity Reporting System (VARS)                       Critical
     Distribution
   Processing and               Delivery Barcode Sorter Input/Output Sub-System                Critical
     Distribution
   Processing and               Computerized Forwarding System II                              Critical
     Distribution




                                                     23
                     This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                            Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                       TR-AR-00-001
 Plan Development and Testing


                 APPENDIX E. MANAGEMENT’S COMMENTS





                                                   24
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                       TR-AR-00-001
 Plan Development and Testing




                                                   25

                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                       TR-AR-00-001
 Plan Development and Testing




                                                   26

                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                       TR-AR-00-001
 Plan Development and Testing




                                                   27

                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                       TR-AR-00-001
 Plan Development and Testing




                                                   28

                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Business Contingency and Continuity Planning:                                       TR-AR-00-001
 Plan Development and Testing



 Major Contributors to
 This Report




                                                   29
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
